No. 20-1223
IN THE

Supreme Court of the United States
————
JOHNSON & JOHNSON AND
JOHNSON & JOHNSON CONSUMER INC.,
Petitioners,
v.
GAIL L. INGHAM, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
Missouri Court of Appeals
for the Eastern District
————
BRIEF OF THE INTERNATIONAL
ASSOCIATION OF DEFENSE COUNSEL
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
————
ERIC G. LASKER
Counsel of Record
GREGORY S. CHERNACK
DANIEL J. MURNER
HOLLINGSWORTH, L.L.P
1350 I Street N.W
Washington, D.C. 20005
(202) 898-5800
elasker@hollingsworthllp.com
gchernack@hollingsworthllp.com
dmurner@hollingsworthllp.com
Counsel for Amicus Curiae
April 1, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

STATEMENT OF INTEREST ............................

1

INTRODUCTION ................................................

2

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

4

CONCLUSION ....................................................

13

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Adden v. Middlebrooks,
688 F.2d 1147 (7th Cir. 1982) ...................

7

Beydoun v. Wataniya Rests. Holding, Q.S.C.,
768 F.3d 499 (6th Cir. 2004) ..................... 9, 12
Bristol-Myers Squibb Co. v. Superior Court,
137 S. Ct. 1773 (2017) ............................... 6, 11
Ford Motor Co. v. Montana Eighth
Judicial Dist. Ct.,
No. 19-368, 2021 WL 1132515
(decided Mar. 25, 2021) .................... 3, 6, 12, 13
Harlow v. Children’s Hosp.,
432 F.3d 50 (1st Cir. 2005) ....................... 11, 12
In re: KBR, Inc.,
893 F.3d 241 (4th Cir. 2018) .....................

11

Int’l Shoe Co. v. State of Washington,
Off. of Unemployment,
326 U.S. 310 (1945) ...................................

3, 5

King v. Wise Staffing Servs., Inc.,
No. 2:18-CV-01731-RDP, 2020 WL
5110758, (N.D. Ala. Aug. 31, 2020) ..........

6

O’Connor v. Sandy Lane Hotel Co.,
496 F.3d 312 (3d Cir. 2007) ......................

7

Raffaele v. Compagnie Generale Mar.,
707 F.2d 395 (9th Cir. 1983) .....................

6

Toys “R” Us, Inc. v. Step Two, S.A.,
318 F.3d 446 (3d Cir. 2003) .................... 8, 9, 12
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) ................................... 3, 5, 8

iii
TABLE OF AUTHORITIES—Continued
Page(s)
CONSTITUTIONAL PROVISION
U.S. Const. amend. XIV, § 1 .................. 3, 5, 6, 13
OTHER AUTHORITIES
Victor E. Schwartz, et al., The U.S. Supreme
Court’s Personal Jurisdiction Paradigm
Shift to End Litigation Tourism, 14 Duke
J. of Con. L. & Pub. Policy 51 (2019) ........ 10-11

STATEMENT OF INTEREST
The International Association of Defense Counsel
(IADC) respectfully submits this brief as amicus
curiae. It is filing due solely to its interest in the
important issues raised by this case.1
IADC is an invitation-only, peer-reviewed membership organization of about 2,500 in-house and outside
defense attorneys and insurance executives. It is
dedicated to the just and efficient administration of
civil justice and improvement of the civil justice
system. IADC supports a justice system in which
plaintiffs are fairly compensated for genuine injuries,
responsible defendants are held liable for appropriate
damages, and non-responsible defendants are exonerated without unreasonable cost. Amicus regularly
appears before the Court as amicus curiae in cases
involving issues of importance to their members. See,
e.g., Janssen Pharm., et al. v A.Y., et al., No. 20-1069
(March 8, 2021) (brief in support of certiorari petitions) (cert pending); Trans Union LLC, v. Ramirez,
No. 20-297, 2021 WL 533217 (Feb. 8, 2021) (brief in
support of judgment reversal) (cert granted).
IADC’s members represent distributors, packagers,
and manufacturers across the country. The specific
jurisdiction standard that the Missouri courts adopted
in Ingham will improperly pull these entities into legal
disputes with which they have no connection whatsoever,
1

Amicus hereby affirms that no counsel for either party
authored any part of this brief in whole or in part. No party,
counsel for a party, or person other than amicus, their members,
or counsel made any monetary contribution intended to fund the
preparation or submission of this brief. Amicus notified all
parties of their intent to submit this brief at least 10 days before
it was due and all parties provided written consent to the filing
of this brief.

2
other than as a mechanism whereby a plaintiff seeks
to create jurisdiction in a preferred forum. These
tactical maneuvers do nothing to advance the interests
of justice or the efficient resolution of controversies,
and they impose significant costs on nonparties who
are forced to respond to jurisdictional discovery and
retain counsel to protect their interests.
INTRODUCTION
The lower court’s adoption of a “but-for” approach to
specific jurisdiction incentivizes forum shopping, enabling plaintiffs to litigate in jurisdictions with which
they have no connection and obtain jurisdiction only
by imposing significant costs on nonparties. This is
exactly what occurred in this case: Lacking any relationship to the forum state of their choice, Plaintiffs
sought side-door entry into Missouri through extensive discovery of Defendant’s forum-state contractor,
a nonparty with no connection to the operative facts
of the lawsuit. Plaintiffs did not reside in Missouri,
purchase Johnson & Johnson Consumer Inc.’s (JJCI)
talc in Missouri, nor suffer injury in Missouri. Defendant
JJCI likewise was not a citizen of Missouri. Thus,
in order to create a jurisdictional hook to Missouri,
Plaintiffs focused on a bottler of one of JJCI’s products
that happened to be located in Missouri, requiring that
bottler to identify and process 6.5 million documents
at the expense of over half a million dollars. Ultimately,
the lower courts justified jurisdiction in Plaintiffs’
preferred forum based solely upon this bottling
activity, concluding it was a “but-for” cause of their
injury as it was a necessary step in the production of a
product that allegedly harmed them.
This approach distorts the constitutional principle
of specific jurisdiction. Rather than the parties’ forum
ties determining specific jurisdiction, in this case the

3
Plaintiffs’ desire to bring suit in a different forum
determined that a nonparty entity would be pulled
into the litigation. By increasing costs on nonparties,
this “but-for” approach also distorts the “interstate judicial system’s interest in obtaining the most efficient
resolution of controversies.” World-Wide Volkswagen
Corp. v. Woodson, 444 U.S. 286, 292 (1980) (emphasis
added). This Court’s specific jurisdiction rulings have
sought to limit these distortions. It has understandably looked askance at cases in which a plaintiff lacks
any connection with the chosen forum but engages in
tactical machinations aimed at obfuscating that fact.
This issue merits review.
SUMMARY OF ARGUMENT
This case offers the Court the opportunity to review
whether specific jurisdiction can exist in a forum with
which plaintiffs have no connection and the defendant’s
only relevant ties are premised upon a nonparty with
no connection to the legal dispute. The lower court’s
approach in finding jurisdiction on this ground
promotes forum shopping and imposes burdens on
nonparties that prevent the most efficient resolution
of controversies.
The Court’s specific jurisdiction decisions—from
International Shoe to Ford Motor Co.—hail Due
Process as the “instrument of interstate federalism”
that prevents self-interested state acquisition of
jurisdiction that would undermine the “orderly
administration” of the interstate judicial system.
These decisions identify the “most efficient resolution
of controversies” as one goal of the system. WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286,
292, 294 (1980) (emphasis added). To pursue efficient
dispute resolution, courts have rejected specific jurisdiction where it would promote forum shopping,

4
increase discovery costs, multiply judicial proceedings,
or complicate the legal questions that require decision.
By sharp contrast, the lower court’s approach to
jurisdiction in this case would turn these important
goals on their head.
The “but-for” approach to jurisdiction adopted below
imposes significant costs on nonparties, most particularly in having to answer (and often litigate) extensive
jurisdictional discovery. Missouri’s expansive view
of specific jurisdiction turns almost any relationship
between a forum-state contractor and an out-of-state
defendant into fertile ground for jurisdictional discovery
and ultimately a massive enlargement of the specific
jurisdiction doctrine this Court has enunciated over
the past decade. In the specific case below, the “butfor” approach resulted in a nonparty having to process
6.5 million documents at significant cost. Increased
exposure to jurisdictional discovery threatens every
forum-state nonparty that contracts with an out-ofstate defendant, requiring both sides to such a
contract to weigh the added risks and costs due to this
jurisdictional argument.
To deter forum shopping and ensure order and
efficiency in the interstate judiciary, this Court should
grant certiorari and consider whether the “arise out of
or relate to” test is satisfied when a defendant’s forumstate activity is a “but-for” cause of plaintiffs’ injuries
but plaintiffs themselves lack any connection to the
forum state.
ARGUMENT
Over more than eight decades, the Court has placed
restrictions on the scope of jurisdiction to, among other
things, limit the ability of plaintiffs to engage in forum
shopping and to ensure an efficient judicial system.

5
The Missouri court’s holding upsets both of these
goals, allowing plaintiffs to search across the nation
for a friendly jurisdiction and then to look for nonparties
within that forum with any connection to defendants
to swing open the jurisdictional gate. This perverse
system—in which a plaintiff’s forum shopping determines the entities that will incur the costs of litigation
rather than the parties to the dispute determining
jurisdiction—creates inefficiencies and imposes substantial costs on nonparties, who are often subjected
to extensive and costly discovery obligations. The
consequences of the Missouri court’s “but-for” jurisdictional approach and its impact on the federal system
and on nonparties warrant review by this Court.
This Court’s specific jurisdiction holdings promote
the “interstate judicial system’s interest in obtaining
the most efficient resolution of controversies.” WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 292
(1980). Promoting efficient and orderly dispute resolution is not simply judicial pragmatism—the Due
Process Clause demands it. As early as International
Shoe, this Court acknowledged that satisfaction of Due
Process in the jurisdictional inquiry requires consideration of both fairness to the parties and the “orderly
administration of the laws.” Int’l Shoe Co. v. State of
Washington, Off. of Unemployment Comp. & Placement,
326 U.S. 310, 319 (1945). And the Court has reiterated
that constitutional dictates limit jurisdiction:
[E]ven if the defendant would suffer minimal
or no inconvenience from being forced to
litigate before the tribunals of another State;
even if the forum State has a strong interest
in applying its law to the controversy; even if
the forum State is the most convenient
location for litigation, the Due Process Clause,

6
acting as an instrument of interstate federalism, may sometimes act to divest the State of
its power to render a valid judgment.
Bristol-Myers Squibb Co. v. Superior Court, 137 S. Ct.
1773, 1780–81 (2017).
This Court’s most recent ruling on this subject
reiterates how the Due Process Clause restricts the
ability of plaintiffs to abuse our federal system by
engaging in forum shopping. See Ford Motor Co. v.
Montana Eighth Judicial Dist. Ct., No. 19-368, 2021
WL 1132515 (decided Mar. 25, 2021). In finding
specific jurisdiction to exist, the Court stressed the fact
that the victims were residents of the states where the
suits were brought and that the accidents at issue
occurred in those jurisdictions. E.g., id. at *3. In
contrast, the Court explained, the plaintiffs in BristolMyers (like the plaintiffs at issue in Ingham) had no
such connections to the forum. Id. at *8. Instead,
“the [Bristol-Myers] plaintiffs were engaged in forum
shopping—suing in [the forum state] because it was
thought plaintiff-friendly, even though their cases had
no tie to the State.” Id. Accordingly, jurisdiction
existed in Ford but not Bristol-Myers. Id.
Beyond forum shopping, federal courts have identified a number of other situations that detract from the
“efficient resolution of controversies.” For example,
courts have rejected jurisdictional claims that would
increase discovery costs. See, e.g., Raffaele v. Compagnie
Generale Mar., 707 F.2d 395, 399 (9th Cir. 1983)
(increasing discovery costs reduces “the most efficient
resolution of the controversy”); King v. Wise Staffing
Servs., Inc., No. 2:18-CV-01731-RDP, 2020 WL 5110758,
at *8 (N.D. Ala. Aug. 31, 2020) (easing the discovery
burden on witnesses and document production makes
resolution of the claims more efficient for the

7
interstate judicial system). Likewise, courts have
looked askance at jurisdictional claims that increase
the number of issues in dispute or otherwise complicate the correct determination of the law. See, e.g.,
Adden v. Middlebrooks, 688 F.2d 1147, 1156 (7th Cir.
1982) (rejecting specific jurisdiction in a forum that
would require resolution of legal issues not present in
other jurisdictions while failing to promote “the most
efficient resolution” of the controversy).
The Missouri court’s adoption of the “but-for” approach
undermines both of these goals by promoting forum
shopping and threatening a forum-state nonparty with
significant costs whenever its out-of-state contractual
partner is sued. Given today’s interconnected economy,
any step in the production chain can be targeted as a
“but-for” cause of an injury, allowing plaintiffs to scour
the nation for a favorable forum and an unwitting
forum-friendly company for a possible jurisdictional
hook. As the Third Circuit explained in rejecting this
“but-for” approach, it “is vastly overinclusive . . . it has
no limiting principle; it literally embraces every event
that hindsight can logically identify in the causative
chain.” O’Connor v. Sandy Lane Hotel Co., 496 F.3d
312, 322 (3d Cir. 2007) (quotation marks omitted).
If virtually any conduct by a forum-state nonparty
is sufficient to establish jurisdiction over an out-ofstate defendant, the procedural rules of many states
would authorize jurisdictional discovery against the
nonparty simply because there is a contract for services between these two entities.2 Under the standard
2

Even under the federal standard for jurisdictional discovery—if
the “requisite contacts” for jurisdiction require only “but-for”
causation—then such discovery is warranted whenever plaintiffs
can allege with “reasonable particularity” that some connection
between the forum-state nonparty and the out-of-state defendant

8
elucidated by the courts below, small and mid-size
distributors, packagers, and manufacturers will become
targets of discovery not because of any relevant
connection to legal disputes but because of the happenstance of their location in a perceived plaintiff-friendly
forum. These unlucky companies will be forced to
incur significant expenses to comply with (or defend
against) burdensome discovery requests from forumshopping plaintiffs, expenses that they can avoid only
by moving to another jurisdiction. In the modern
chain of commerce, a final product might require
labor and component parts from ten or more states.
Granting jurisdiction based on the service or part
supplied in any state, even when a service or part is
merely a “but-for” cause of the alleged injury, would
severely chill interstate economic activity and undermine the interstate marketplace the Constitution
seeks to protect. See, e.g., World-Wide Volkswagen
Corp., 444 U.S. at 293 (“In the Commerce Clause, [the
Founders] provided that the Nation was to be a common
market, a free trade unit in which the States are
debarred from acting as separable economic entities.”).
Ingham itself exemplifies these problems. Plaintiffs
did not allege that they themselves had any connection
to Missouri. Third Am. Pet. ¶¶ 7-84, Ingham v.
Johnson & Johnson, et al., No. 1522-CC10417-01 (Mo.
Cir. Ct. St. Louis City Oct 2, 2017). They did not live
in Missouri, purchase JJCI’s talc in Missouri, nor
might supply a link in the causal chain. See, e.g., Toys “R” Us,
Inc. v. Step Two, S.A., 318 F.3d 446, 456 (3d Cir. 2003) (“If a
plaintiff presents factual allegations that suggest with reasonable particularity the possible existence of the requisite contacts
between [the party] and the forum state, the plaintiff’s right to
conduct jurisdictional discovery should be sustained”) (quotation
marks omitted).

9
experience injury in Missouri. Id. They did not allege
that JJCI was at home in Missouri. But Missouri was
their chosen forum, so they searched out nonparties
with a business relationship with JJCI and identified
Pharma Tech, a bottler that contracted with JJCI.
But for Plaintiffs’ desire to bring suit in Missouri,
there was no reason for Pharma Tech to be involved
in this lawsuit. Plaintiffs never asserted—nor could
they—that Pharma Tech’s packaging of JJCI’s product
caused the alleged defect that led to their injuries.
Their complaint claims that the alleged defect, an
asbestos impurity, originated during a co-defendant’s
mining of talc, Third. Am. Pet. ¶ 102, an activity that
Pharma Tech did not participate in (and that had no
connection to Missouri). Plaintiffs did not allege that
Pharma Tech mined or tested the allegedly defective
talc or that Pharma Tech designed the allegedly
inadequate label. Id. And in seeking jurisdictional
discovery, Plaintiffs never alleged with “reasonable
particularity” facts showing that their subpoenas
might lead to evidence relevant to personal jurisdiction under the “proximate cause” standard, i.e., that
Pharma Tech’s packaging activities in Missouri were
the “operative facts” that caused Plaintiffs’ injuries.
See, e.g., Toys “R” Us, Inc., 318 F.3d at 456 (jurisdictional discovery requires facts alleged with “reasonable
particularity”); Beydoun v. Wataniya Rests. Holding,
Q.S.C., 768 F.3d 499, 507-508 (6th Cir. 2004) (applying
proximate cause standard and rejecting specific jurisdiction because plaintiff-CEO’s recruitment by defendantemployer in forum state and subsequent business
trips to forum state as defendant’s agent were not
“operative fact[s]” that caused defendant’s alleged
wrongful detainment of the plaintiff in Qatar when
defendant’s business suffered (emphasis added)).

10
But applying the “but-for” approach to jurisdiction,
the trial court granted Plaintiffs’ request for extensive
jurisdictional discovery of Pharma Tech, based solely
on the existence of JJCI’s packaging contract with
Pharma Tech. See Pharma Tech’s Mot. for Protective
Order and Costs, ¶¶ 4, 9, Ingham v. Johnson &
Johnson, et al., No. 1522-CC10417-01 (Mo. Cir. Ct. St.
Louis City Mar. 12, 2018). This discovery sought 45
years of records, requiring Pharma Tech to identify
and process 6.5 million documents, and cost Pharma
Tech over half a million dollars to satisfy. Id. ¶¶ 11–
12, 15. In addition, Pharma Tech incurred significant
expenses in litigating (unsuccessfully) these discovery
demands, resulting in 11 briefs, 4 hearings, 4 orders
and several “meet-and-confers.” See Dkt., Ingham v.
Johnson & Johnson, et al., No. 1522-CC10417-01 (Mo.
Cir. Ct. St. Louis City); see also Pharma Tech’s Mot.
for Protective Order and Costs, at 1–5. Thus, not
only was the nonparty required to expend significant
resources but so too were the parties and the court,
which had to address a range of issues, including
notice, the subpoena power, privilege, and Missouri
procedural law. See, e.g., Pltfs.’ Mot. to Compel Disc.,
¶ 7, Ingham v. Johnson & Johnson et al., No. 1522CC10417-01 (Mo. Cir. Ct. St. Louis City Aug. 22,
2017); Pharma Tech’s Objections to Special Master’s
Order to Compel Disc., at 4, 7–8, 10, Ingham v.
Johnson & Johnson et al., No. 1522-CC10417-01 (Mo.
Cir. Ct. St. Louis City Oct. 25, 2017).
The increased burdens imposed by this “but-for”
approach to jurisdiction threaten any forum-state
nonparty that has contracted with an out-of-state
defendant. As seen in this case, the costs to the
nonparty in responding to jurisdictional discovery can
be substantial. See, e.g., Victor E. Schwartz, The U.S.
Supreme Court’s Personal Jurisdiction Paradigm

11
Shift to End Litigation Tourism, 14 Duke J. of Con. L.
& Pub. Policy 51, 74–75 (2019) (“[a]llowing broad
discovery on purely jurisdictional matters, before the
merits of any alleged claim are considered, could create
an undue burden.”). The burden of jurisdictional
discovery is already high. In one case, “[j]urisdictional
discovery yielded over 5.8 million pages of documents
. . . and 34 witness depositions,” In re: KBR, Inc., 893
F.3d 241, 254 (4th Cir. 2018), but that discovery at
least was directed to a party to the lawsuit. Further
expanding the basis for jurisdictional discovery to
nonparties not only imposes such costs on entities
that otherwise would play no role in a legal dispute, it
distorts business relationships and interstate commerce.
Distributors, packagers and other entities that serve
as necessary links in national product distribution
chains will incur added costs having nothing to do
with their business conduct but solely where they
are headquartered. States and local jurisdictions
perceived as plaintiff friendly will be placed at an
economic disadvantage in attracting businesses, not
because of any risk from wrongdoing that the company
might commit but because of the jurisdictional “rules
of the game,” that place targets on companies that can
open jurisdictional doors. Both of these concerns
undermine the federal marketplace.
The Missouri court applied the “but-for” approach
even though the Plaintiffs lacked their own independent ties to the forum state, such as residence or
location of injury. This interpretation of Bristol-Myers
promotes forum shopping and imposes a much greater
burden on nonparties than does the “proximate cause”
approach adopted by numerous federal appellate
courts. See, e.g., Harlow v. Children’s Hosp., 432 F.3d
50, 61 (1st Cir. 2005) (adopting proximate cause
standard and noting “the proximate cause standard

12
better comports with the relatedness inquiry because
it so easily correlates to foreseeability, a significant
component of the jurisdictional inquiry”); Beydoun,
768 F.3d at 507–08 (adopting proximate cause
standard and holding “only consequences that proximately result from a party’s contacts with a forum
state will give rise to jurisdiction”). The “proximate
cause” rule holds that the nonparty’s activity in the
forum state must constitute an “important, or [at
least] material, element of proof in the plaintiff’s case.”
Harlow, 432 F.3d at 61 (quotations omitted). Under
the “proximate cause” rule, a forum-state nonparty
would not face jurisdictional discovery merely because
it contracts with an out-of-state defendant. Unless the
service performed by a nonparty under a contract
supplies the plaintiff with an “important” or “material”
element of their claim, specific jurisdiction would not
exist. The mere existence of a contract between a
forum-state nonparty and out-of-state defendant does
not “present factual allegations” suggesting “with
reasonable particularity” that further investigation of
the nonparty would establish that the service the
nonparty performed actually caused the plaintiff’s
injury. Accordingly, discovery would not be warranted.
See, e.g., Toys “R” Us, Inc., 318 F.3d at 456.
The facts in this case are mirror opposite to those of
Ford, providing the Court with an opportunity to
explicate the limits of Ford’s interpretation of “relate
to” jurisdiction. See Ford Motor Co., No. 19-368, 2021
WL 1132515, at *12 (Gorsuch, J. concurring) (“Loosed
from any causation standard, we are left to guess. The
majority promises that its new test ‘does not mean
anything goes,’ but that hardly tells us what does.”).
Here, Pharma Tech’s bottling of the allegedly defective
product unquestionably occurred in the forum state
and that bottling was a “but-for” cause of Plaintiffs’

13
injuries. But unlike the plaintiffs in Ford, the Ingham
Plaintiffs did not purchase or use the product in the
forum state, nor did they allege that they were injured
by the product in the forum state, or that the events
that occurred in Missouri play a role in causing the
alleged harm. Where plaintiffs lack their own ties to
a forum state, the “but-for” approach permits, if not
encourages, virtually unlimited forum shopping.
This case presents the Court the chance to elucidate
whether application of the “but-for” approach—when
plaintiff-specific forum ties are absent—distorts Due
Process by increasing forum shopping and subverting
the interstate judicial system’s “most efficient resolution of controversies.” It should take this opportunity.
CONCLUSION
Due Process is the “instrument of interstate federalism” that protects the whole judicial system against
the parts’ self-interested acquisition of jurisdiction.
For the foregoing reasons, Amicus respectfully asks
the Court to grant certiorari to address the serious
consequences of the “but-for” approach to jurisdiction
on this fundamental constitutional protection.
Respectfully submitted,
ERIC G. LASKER
Counsel of Record
GREGORY S. CHERNACK
DANIEL J. MURNER
HOLLINGSWORTH, L.L.P
1350 I Street N.W
Washington, D.C. 20005
(202) 898-5800
elasker@hollingsworthllp.com
gchernack@hollingsworthllp.com
dmurner@hollingsworthllp.com
April 1, 2021

Counsel for Amicus Curiae

